U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 21, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Hamdi Mohamud v. Heather Weyker, No. 21-187
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 6,
2021. The government’s response is now due, after one extension, on October 12, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 10, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0187
MOHAMUD, HAMDI
HEATHER WEYKER

SAMUEL ECKMAN
GIBSON, DUNN & CRUTCHER LLP
333 SOUTH GRAND AVENUE
LOS ANGELES, CA 90071-3197
213-229-7204
SECKMAN@GIBSONDUNN.COM
213-229-6204(Fax)
SHELDON EISENBERG
SULLIVAN & TRIGGS, LLP
1230 MONTANA AVE., SUITE 201
SANTA MONICA, CA 90403
310-451-8300
SEISENBERG@SULLIVANTRIGGS.COM
COURTNEY ELGART
SULLIVAN & TRIGGS, LLP
1230 MONTANA AVENUE
SANTA MONICA, CA 90403
310-272-7732
CELGART@SULLIVANTRIGGS.COM
THEANE EVANGELIS
GIBSON DUNN & CRUTCHER LLP
333 SOUTH GRAND AVENUE
LOS ANGELES, CA 9007-3197
213-229-7000
TEVANGELIS@GIBSONDUNN.COM

PATRICK MICHAEL JAICOMO
INSTITUTE FOR JUSTICE
901 NORTH GLEBE ROAD
SUITE 600
ARLINGTON, VA 22203
703-682-9320
PJAICOMO@IJ.ORG

